DAVIDSON BACKMAN MEDEIROS
ATTORNEYS AT LAW
A PROFESSIONAL LIMITED LIABILITY COMPANY

AARON D. GOFORTH*
agoforth@dbm-lawnet

1550 BANK OF AMERICA FINANCIAL CENTER
601 WEST RIVERSIDE AVENUE
SPOKANE, WASHINGTON 99201
FACSIMILE (509) 623-1660
(509) 624-4600
*LICENSED IN WA AND ID

December 13, 2019
Supreme Court, U.S.
FILED

Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543-0001

DEC 13 2019
OFFICE OF THE CLERK

Dean Browning Webb, et aL, Petitioners
v.
Deere & Company, et al., Respondents
Ninth Circuit U.S. Court of Appeals Case No. 18-35366
U.S. Supreme Court Case No. 19-695
Dear Clerk:
I represent Respondents T16 Management Co., Ltd., and Gary and Linda Johnson ("T16
Respondents"). Because this case clearly does not warrant review by the Supreme Court, the
T16 Respondents do not intend to file a Brief in Opposition to the Petition for Certiorari unless
requested to do so by the Court.
Very truly yours,
DAVIDSON BACKMAN MED IROS PLLC

Aaron D. Goforth
agoforth@dbm-law.net
(Bar Admission Application Pending)
pc:

Dean Browning Webb, Petitioner/counsel for Petitioners
John S. Devlin, III and Abraham K. Lorber of Lane Powell for the Deere Companies
Jeffrey R. Simpson of Talbott, Simpson & Davis P.S. for American West Bank,
NW Management Realty, AKA NW Farm Management and SKBHC Holdings
Brendan V. Monahan of Stokes Lawrence Velikanje Moore & Shore for Robert &
Michelle Wyles
Scott E. Stafne, Pro Se

RECEIVED
DEC 19 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

